Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Methamphetamine Initiative Grant Awarded to the Oklahoma State Bureau of InvestigationOklahoma City, Oklahoma

Report No. GR-80-04-007


August 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Methamphetamine Initiative grant awarded by the Office of Community Oriented Policing Services (COPS) to the Oklahoma State Bureau of Investigation (OSBI).  The purpose of the Methamphetamine Initiative grants is to assist state and local law enforcement agencies in reducing the production, distribution, and use of methamphetamine.  The OSBI was awarded a total of $1,496,700 to train and equip approximately 230 law enforcement officers to safely respond to clandestine methamphetamine laboratories and collect evidence.
We tested OSBI's compliance with four essential grant conditions-reporting, grant drawdowns, budget management and control, and grant expenditures-and found two weaknesses in one area tested, budget management and control.  As a result of the deficiencies identified below, we question a total of $692,414 in grant funds received.1
Budget Management and Control
The Office of Justice Programs Financial Guide states that if the grant award is more than $100,000, the grantee can reallocate funds among approved categories, up to 10 percent of the total award amount, without prior approval from the awarding agency.  The OSBI exceeded the 10 percent limit, or $149,670 of the total award amount of $1,496,700, by $692,414.  Therefore, we questioned that amount and also recommend that the COPS Office ensure that the OSBI develop and implement procedures to track grant expenditures by approved budget categories.
Our report contains two recommendations to address the preceding issues, which are discussed in detail in the Findings and Recommendations section of this report.  Our audit objectives, scope, and methodology appear in Appendix I of the report.
We discussed the results of our audit with OSBI officials and have included their comments in the report, as applicable.


Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for the definition of questioned costs.